IN THE SUPREME COURT OF THE UNITED STATES

JOHN DOE
Petitioner
No: 19-0665

vs.

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
December 05, 2019
cc:
See Attached List

WILLIAM B. MATEJA
SHEPPARD, MULLIN, RICHTER &
HAMPTON LLP
2200 ROSS AVENUE
24TH FLOOR
DALLAS, TX 75201
KARIN DOUGAN VOGEL
SHEPPARD MULLIN RICHTER &
HAMPTON LLP
501 WEST BROADWAY
19TH FLOOR
SAN DIEGO, CA 92101
JOHN D. ELLIS
SHEPPARD MULLIN RICHTER &
HAMPTON LLP
FOUR EMBARCADERO CENTER
17TH FLOOR
SAN FRANCISCO, CA 94111

